CERTIFICATE OF SERVICE
NO. TBD
Thomas Sander
Petitioner(s)
v.
City of Dickinson, North Dakota et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the THOMAS
SANDER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Scott K. Porsborg
Smith Porsborg Schweigert
122 East Broadway Avenue
P.O. Box 460
Bismarck, ND 58501
(701) 258-0630
sporsborg@smithporsborg.com
Counsel for City of Dickinson, North Dakota;
Kylan Klauzer; and Jeremy Moser

Michael C. Waller
Crowley Fleck PLLP
100 West Broadway, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
(701) 223-6585
mwaller@crowleyfleck.com
Counsel for Terry Oestreich

Lucas DeDeus

November 19, 2019
SCP Tracking: Honaker-214 Winston Drive-Cover White

